Compliance with Standards Governing
Combined DNA Index System Activities at the
Arizona Department of Public Safety, 
Scientific Analysis Bureau DNA Laboratory,
Phoenix, Arizona

Compliance with Standards Governing
Combined DNA Index System Activities at the
Arizona Department of Public Safety, 
Scientific Analysis Bureau DNA Laboratory,
Phoenix, Arizona

Audit Report GR-60-05-009


June 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Arizona Department of Public Safety Scientific Analysis Bureau DNA Laboratory (Laboratory).1   The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990.  The DNA Identification Act of 1994 (Public Law 103-322) formalized the FBIs authority to establish a national DNA index for law enforcement purposes.  The Act specifically authorized the FBI to establish an index of DNA identification records of persons convicted of crimes, and analyses of DNA samples recovered from crime scenes.  The Act further specified that the index include only DNA information that is based on analyses performed in accordance with standards issued by the FBI.

The FBI implemented CODIS as a distributed database with three hierarchical levels that enable federal, state, and local crime laboratories to compare DNA profiles electronically.  The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level.  The NDIS became operational in 1998 and is managed by the FBI as the nations DNA database containing DNA profiles uploaded by participating states.  DNA profiles originate at the local level, flow to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime, or if crimes can be linked to each other.

The FBI provides CODIS software free of charge to any state or local law enforcement laboratory performing DNA analysis.  A laboratorys profiles have to be uploaded to NDIS before the profiles benefit the system as a whole.  Before a laboratory is allowed to participate at the national level a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory.  The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize NDIS.2
The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities.  Specifically, we performed testing to determine if the:  1) Laboratory was in compliance with the NDIS participation requirements; 2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and 3) Laboratorys DNA profiles in CODIS databases were complete, accurate, and allowable.

We determined that the Laboratory was in compliance with the standards governing CODIS activities, including NDIS participation requirements and Laboratory profiles, with some exceptions regarding the quality assurance standards.  Specifically, we noted the following.

We determined that there are no access restrictions limiting non-DNA laboratory personnel from accessing the DNA laboratory, including after hours when no DNA personnel may be present.  We conclude that affording non-DNA laboratory personnel unrestricted access to the DNA laboratory does not meet Quality Assurance Standard (QAS) 6.1.1 that requires that access to the DNA laboratory be limited and controlled.  

	We also observed that freezers used for short-term evidence storage were not secured.  While the freezers are located within the DNA laboratory space, we conclude that the freezers should be secured independently of the security in place for the DNA laboratory facility, particularly in light of the lack of access restrictions previously mentioned.  Secure evidence storage is required by QAS 7.1.4.  Laboratory management stated that the securing of the freezers would be consistent with the other evidence storage safeguards in place in the laboratory, and implemented a policy to begin locking the freezers during our audit.  

	We observed the use of open space within the laboratory for storage of convicted offender samples that could not be stored within a locked sample storage room.  While some of the samples stored in open space were sealed, others that awaited analysis were not.  Consequently, we concluded that the storage of the convicted offender samples in open space did not qualify as secure storage required by QAS 7.1.4, particularly in light of the previously mentioned lack of access limitations for non-DNA laboratory personnel.  Laboratory management stated they are aware of the limited securable storage for offender samples, and provided us with documentation during our audit for steps already underway to remedy the problem, including the purchase of a 
high-capacity file system for the securable room and the transfer of the bulky samples currently used to more compact archive cards.

We made three recommendations to address the Laboratorys compliance with standards governing CODIS activities, which are discussed in detail in the Findings and Recommendations section of the report.  In addition, we discussed the results of our audit with Laboratory officials and have included their comments in the report as applicable.  Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II of the report.




Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life.  Approximately 99.9 percent of human DNA is the same for all people.  The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
	These standards were appended to the MOU as Appendix C - NDIS Procedure Manual.  This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS.  For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures.